CERTIFICATE OF WORD COUNT
NO. TBD
Arlane James, In Re: Willie Gibbons et al.,
Petitioner,
v.
Noah Bartlet,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the ARLANE JAMES, IN RE:
WILLIE GIBBONS ET AL. PETITION FOR WRIT OF CERTIORARI contains 8511 words, including the parts
of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
January 4, 2021

SCP Tracking: Ransom-3000 Atrium Way, Suite 200-Cover White

